                        CLOSEOUT FOR CASE M99030008
        On 12 March 1999, OIG received allegations of misconduct in science from the
complainant,' who alleged that the subject2 fabricated data, misrepresented data, and
plagiarized material.

        We did not have jurisdiction to pursue about half of the allegations. These included
allegations of plagiarism, fabrication of data, application for a patent using' plagiarized and
fabricated data, and publication of results that the subject knew were incorrect but failed to
retract. However, we reviewed these allegations to determine if any should be forwarded to .
                                                                                                -.
                                                                                                 C




an agency with j~risdiction.~We determined that there was insufficient substance to inform
the involved agency of these allegations.

        We had jurisdiction over the following allegations of misconduct against the subject:

        Allegation 1: The subject allegedly misrepresented data when he used the same
figure in papers 1 and 2.4 According to the complainant, because these papers involved
different experimental approaches, the subject's use of the same figure in both papers
misrepresented results in one of them. Paper 1 acknowledged NSF support.5 Our review
determined that the subject did use the same figure in papers 1 and 2, hut that he did nothing
wrong. The figure depicted the analysis of a bulk standard sample that was used in both
studies. There was no substance to allegation 1.

       Allegation 2: The subject allegedly published two identical sets of figures in papers 3
and 4.6 Paper 4 acknowledged NSF support.' We compared the two sets of figures and
determined that they were not identical. There was no substance to allegation 2.




                                                                                   ~-
' See footnote 5.

                                         Page 1 of 2                                  M99-08
                             CLOSEOUT FOR CASE M99030008

         Allegation 3: The subject allegedly published the same data in two different journal
 articles, papers 5 and 6,8 each of which presented these data as new research. Both papers
 acknowledged NSF support.9 We determined that papers 5 and 6 were part of a series of
 reports on the same topic. Paper 5, the intended second paper, referenced paper 6, but was
 actually published one month before paper 6. Because the papers were part of a series, we
 observed some overlap with the data presentation. Such overlap is not uncommon in papers
 that are part of a series. Our review determined that the two papers also contained different
 results and conclusions. There was no substance to allegation 3.          ,



        Allegation 4: The subject claimed many "patents pending" in his NSF proposals, but
 allegedly has received very few actual patents. Consequently, the complainant alleged that
 the subject exaggerated the number of patents for which he had applied. We found no
 substantive information that supported this coiltention. There was insufficient substance to
 pursue allegation 4.

             We also reviewed information from the institution's inquiry into these allegations.
     The institution's report concluded that none of the complainant's allegations warranted
     investigation.

            This inquiry should be closed and no further action will be taken.

cc: Integrity, IG




               -                                                                   - -
           -
                                                                                 i i


9-
     See footnote 5.


                                             Page 2 of 2                                 M98-08
